5446

i

ORIGINAL

IN THE

SUPREME COURT OF THE UNITED STATES
Supre

AV6 / 3 232]
£FF!C£ O

. ROBERT CARTER-PETITIONER

VS

VINCENT MOONEY, ET AL.-RESPONDENTS

On Petition for a Lilrit of Certiorari to the United States Court of
Appeals for the Third Circuit Order that uas issued on March 1B, 2021.

PETITION FOR WRIT OF CERTIORARI

Submitted by,
Robert Carter, Pro Se
KZ 524B
301 Institution Drive
Bellefonte, PA 16B23

RECEIVED
AUG 2 3 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

i

QUESTIONS PRESENTED
1.

WHETHER TRIAL COUNSEL ADEQUATELY AND EFFECTIVELY ASSISTED PETITIONER
IN DECIDING WHETHER TO ACCEPT A PLEA OFFER OF 15 TO 30 YEARS WHERE
COUNSEL FAILED TO OBJECT WHEN HE WAS ERRONEOUSLY ADVISED THAT IF
CONVICTED, HE WOULD ONLY BE SUBJECTED TO A MAXIMUM PENALTY OF 4 YEARS
ON THE MOST SERIOUS CHARGE, THIRD DEGREE MURDER?

2.

WHETHER THE DISTRICT COURT'S DETERMINATIONS REGARDING COUNSEL'S
INEFFECTIVENESS FOR FAILING TO OBJECT TO WITHDRAWAL OF THE CHARGE OF
INVOLUNTARY MANSLAUGHTER WHICH WAS THE LESSER INCLUDED OFFENSE WHERE
SUCH DEFENSE EXISTED MANDATING THIS PARTICULAR INSTRUCTION, DISTORTS
THE MEANINGS OF 28 U.S.C. § 2254(d)(1)/(2)?

i

LIST OF PARTIES

1.

Vincent Mooney, the Superintendent of SCI Retreat.

2.

The

Commonwealth

of

Pennsylvania,

in

particular,

the

District

Attorney's Office of Philadelphia.
3.

The Superior Court of Pennsylvania.

4.

The

United

States

District

Court

Pennsylvania.
5.

The Third Circuit Court of Appeals.

ii

for

the

Eastern

District

of

TABLE OF CONTENTS

PAGE(!S)
Questions Presented
List of Parties
Table of Authorities
Opinions Below •
Jurisdiction
Constitutional and Statutory Provisions Involved
Statement Of The Case
Reasons for Granting the Petition
Conclusion
Certificate of Service

i
ii
iv
1
2
3
4-6
6-16
17
10

APPENDIX
Robert Carter v. Vincent Mooney, et al.,
2019 U.S. Dist. Lexis 107910, No. 10-2366 (E.D Pa. 2019) •

A

Robert Carter v. Vincent Mooney, et al.,
2020 U.S. Dist. Lexis 92977,» No. 10-2366 (E.D. Pa. 2020) •

B

Robert Carter v. Superintendent Retreat SCI, et al.,
No. 2348 (3d Cir. 2021)
••

C

Commonwealth v. Robert Carter,
170 A.3d 1220 (Pa. Super. 2017)

•

•.

D

iii

TABLE OF AUTHORITIES

PAGE(S)

CASES

15
Commonwealth v. Bishop, 372 A.2d 794 (Pa. 1977)
Commonwealth v. Comer, 716 A.2d 593 (Pa. 1990)
•12,15
15
Commonwealth v.. Ewell, 319 A.2d 153 (Pa. 1974)
12
Commonwealth v. Polimeni, 37B A.2d 1109 (Pa. 1977
Hill v. Lockhart, 474 U.S. 52 (1985)
• 9,11
•12,16
Keeble v. United States, 412 U.S. 205 (1973)*
Lafler v. Cooper, 566 U.S. 156 (2012) •
7.9.11
Lee v. United States, 137 S. Ct. 1958 •
• 9-11
Martinez v. Ryan, 566 U.S. 1 (2012)
6.7.11
13,14,16
Matthews v. United States, 485 U.S. 58 (1988)
Miller-El v. Cockrell, 537 U.S. 322 (2003) •
11
Missouri v. Frye, 566 U.S. 134 (2012) •
• 7,9
Stevenson v. United States, 162 U.S. 313 (1896) •
12,14,16
8
United States v. Booth, 432 F.3d 542 (3d Cir. 2005)
United States v. Bui, 795 F.3d 363 (3d Cir. 2015)«
8-9
8
United States v. Day, 969 F.2d 39 (3d Cir. 1992) •
12
Williams v. Taylor, 529 U.S. 362 (2000)«
7
Workman v. Superintendent Albion SCI, 908 F.3d 896 (3d. Cir. 2D18)
12
Yarborough v. Gentry, 540 U.S. 1 (2D03)#

5TATE AND FEDERAL STATUTES
18
28
28
28
28

Pa. C.S.
U.S.C. §
U.S.C. §
U.S.C. §
U.S.C. §

§ 1102(d)
1254(1)
2254(d)(1)
2254(d)(2)
2254(e)

9
2
3,12,16
3,8,16
13

CONSTITUTIONAL PROVISIONS
U.S. Const. Amend. V
U.5. Const Amend. VI
U.S. Const. Amend. XIV

3
3
3

•

iv

;

OPINIONS BELOW
Petitioner respectfully prays that a Writ of Certiorari be- issued, to
review the judgment below.
For cases from federal court:
1.

Robert Carter v. Vincent Mooney, et al., 2019 U.S. Dist. Lexis 107910,
No. 1B-2366 (E.D. Pa. 2019), Appendix.A.

2.

Robert Carter v. Vincent Mooney, et al., 2020 U.S. Dist. Lexis 92977,
No. 18-2366 (E.D. Pa. 2020), Appendix B..

3.

Robert Carter v. Superintendent Retreat SCI

et al., No. 20-2348 (3d

Cir. 2021), Appendix C.
4.

Commonwealth

v.

Robert

Carter,

Appendix D.

1

170 A. 3d 1 220

(Pa.

Super.

2017),

JURISDICTION
The

date

in

which

the

Third

Circuit

Court

of

Appeal

denied

a

Certificate of Appealability was March 1B, 2021. Per Order dated March 19,
2020 via Order List: 509 U.S. and pursuant to Rule 13.1

and 13.3, "the

deadline to file any petition for writ of certiorari [is] due on or after
the date this order is extended to 150 days from the date of the lower
court judgment,

order denying discretionary review, or order denying a

timely petition

for rehearing."

As such,, the. time to file, a writ of

certiorari is August 18, 2021.
Accordingly, this Petition is timely and jurisdiction, is vested in
this Court by way of 28 U.S.C. § 1254(1).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTITUTIONAL PROVISIONS
The Sixth Amendment of the United States Constitution provides that,
"In all criminal prosecutions, the accused shall enjoy the right... to be
confronted with the witnesses against him." U.5. Const. Amend. VI.
The Sixth Amendment of the United States Constitution provids that,
"In all criminal prosecutions, the accused shall enjoy the right... to have
[effective] .Assistance of Counsel for his defense." U.5.;Const. Amend. VI.
The

Fifth

and

Fourteenth

Amendments

forbid

both

the

Federal

Government and the States from depriving any person of "life, liberty, or
property, without due process of law." U.5. Const. Amendments V and XIV.

STATUTORY PROVISIONS
Where claims presented in a federal habeas were adjudicated on the
merits in the state court, a federal court shall not grant habeas relief
unless the adjudication:
"Resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the
United States; or
Resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceeding." 28 U.S.C. §
2254(d)(1)/(2).

3

STATEMENT OF THE CASE
Robert Carter ("Petitioner.") the Petitioner, is a thirty (30) year
old man. klhen the offense was committed, he was only twenty (20) years old.
The circumstances of the case are very unfortunate,,

as

such involves

Petitioner's reckless driving which resulted in the death of Kahlil Sephes
("victim"), the victim .in this case. At this juncture it is noteworthy to
mention that, the Petitioner and the victim were best friends. In fact,
during the trial the victim's mother and sister were willing to testify on
Petitioner's, behalf to essentially shine light on the circumstances by
explaining this was a forgivable accident-they were best friends and to
provide character testimony. N.T. 2/13/13 at B2-B3. Although raised in the
initial collateral review petition, this claim was not fully litigated by
the attorneys involved in this matter. Unquestionably, their testimonies,
at the very least, would have compelled a lesser finding of guilt. In spite
of these facts, the circumstances of this case.are listed as follows.

On April 5,
County,

2011,

in the Court of Common Pleas of Philadelphia

State of Pennsylvania,

among other things,

the Petitioner was

charged with fleeing or attempting to elude officer, unauthorized use of a
motor vehicle,

involuntary manslaughter,

homicide by vehicle and third

degree murder. See, CP-51-CR-7203-2011.

On February 11, 2013, Petitioner was arraigned on the aforementioned
charges and entered a plea of not guilty and requested a trial by jury.
Before the arraignment, the State had offered him a plea of 15 to 30 years.
On its face, the most serious charge in this matter is third degree murder.
In spite of this, the plea was made part of the record and in determining
on whether to accept the plea offer or not, Petitioner was informed by the

k

state court that the charge of "third degree murder..,, has a four-year
maximum exposure if

[he]

were convicted of third degree murder." N «T.

2/B/13 at 13. When asked if he had "a full opportunity to talk about" his
options of whether to plead guilty or.not, the Petitioner.responded, "[n]ot
really." Id. at.14. Consequently, the offer of 15 to 3D years’was rejected
and Petitioner proceeded to trial.

As stated above, Petitioner was initially charged with involuntary
manslaughter. 'On the day of trial, however, this charge was nolle prossed.
When this occurred, trial counsel did not object despite this being the
lesser included offense where a defense existed.
The trial commenced and to sustain the causation , element, the State
called Dr. Aaron Rosen ("Dr. Rosen") who was qualified, as an expert in the
field of forensic pathology. N.T. 2/13/13 at 52. Dn direct examination it
was revealed that, Dr. Rosen did not perform the autopsy, nor did he at the
very least participate in any form of the autopsy. Ultimately, Dr. Rosen
provided an opinion for the cause of death and when this occurred, trial
counsel did not object on the grounds that the admission of his testimony
violated Petitioner's Sixth Amendment right to Confrontation. N.T. 2/13/13
at 62.
Thereafter., • closing arguments occurred and the case was in the hands
of the jury. However, prior to being charged trial counsel was provided the
opportunity to object and/or request an instruction she thought would be
favorable for the Petitioner. Ultimately, this opportunity was declined.
See, N.T. 2/13/13 at 6-9. During deliberations jurors straddled back and
forth by asking questions surrounding the charges of third degree murder
and vehicular homicide. N.T. 2/13/13 at 185-166.

5

I

Consequently,

on

February

13,

2013,

among

other

things

the
i

Petitioner was- found guilty of third degree murder and vehicular homicide.
On April 19, 2013, for the charge of third degree murder he was sentenced
to 17 to 34 years and for the charge of aggravated assault he was sentenced
to a consecutive term, of B to 16 years. For the accidental death of his
best friend, the Petitioner received an aggregated term of 25 to 50 years
imprisonment.
Petitioner

appealed

in

the

state

courts

and

relief was

denied.

Ultimately, he filed a Petition for Post-Conviction Relief ("PCRA") and on
December 20, 2017, relief was denied. Thereafter, Petitioner 'sought habeas
relief in the district court. On May 28, 2020, the district court denied
relief.

On March 1B,

Petitioner's

request

2021,
for

the Third Circuit Court of Appeals denied

a

Certificate of Appealability

("C0A").

This

Petition for Writ- of Certiorari now follows.

REASONS FOR GRANTING THE PETITION
I.

When deciding to accept a plea offer of
court erroneously advised the Petitioner
for the charge of third degree murder was
it is 40 years. When this occurred, trial
advise Petitioner that this was not true.
was rejected.
In

Martinez

recognized a
default:

v

Ryan,

566

U.S.

1

15 to 3.0 years, the state
that the statutory maximum
only 4 years, when in fact
counsel did not object and
On this premise., the offer

(2012),

narrow equitable exception to

this

Honorable

Court

the doctrine of procedural

"Inadequate assistance of counsel at. initial-review 'collateral

proceedings may establish cause for a prisoner's procedural default of a
claim of ineffective assistance at trial." This exception is available to a
petitioner who can show that:

(1) his procedurally defaulted ineffective

assistance of trial counsel claim has "some merit," and that (2) his state-

6
l

post conviction counsel was "ineffective under the standards of Strickland
v. Washington, 466 U.S. 668 (1984). Id.

In order to prove ineffective assistance of counsel under Strickland,
a

petitioner

must

show

that

"counsel's

representation

fell

below

an

objective standard of reasonableness." Strickland, 466 U.S. at 687-680. A
petitioner must also show "a reasonable probability that, but for counsel's
unprofessional

errors,

the

result

of

the

proceeding

would

have

been

different.". Id. at 694.
The Third Circuit Court of Appeals has adopted .the following rule
with respect to Martinez. If a petitioner can.show "that his underlying
ineffective-assistance-of-trial-counsel claim has .smoe merit and that his
state

post-conviction

counsel's

performance

fell

below

an

objective

standard of reasonableness, '[’then] he has shown sufficient prejudice from
counsel's

ineffective

assistance

that

his

procedural

default

must

be

excused under Martinez." Workman v. Superintendent Albion SCI, 908 F.3d
896, 903 (3d Cir. 2018).
The Honorable Mitchell 5. Goldberg was the district court's judge who
approved the findings of the magistrate judge. In questioning the validity
of those findings, Petitioner refers to that Opinion and Order. See, Carter
v. Mooney, 2020 U.S. Dist Lexis 92977 (E.'D. Pa. 2020); Appendix B.

In this case, the district court relied upon this Court's holdings of
Missouri v. Frye, 566. U.S. 134 (2012) and Lafler v. Cooper, 566 U.S. 156
(2012). This Court held that .defense .counsel has a duty to communicate
formal plea offers to the defendant and the failure to properly communicate
an offer may constitute ineffective assistance of counsel. In contrast, to

7

effectivly assist a client in the plea-bargaining process, counsel must
provide "enough information 'to make a reasonably informed decision whether
to accept a .plea offer.

i n

United States v. Bui, 795 F.3d 363, 366 (3d Cir.

2015).
The Court of Appeals for the Third Circuit has held that, "a habeas
petitioner states a claim under the Sixth Amendment when he contends that
that advice
insufficient

he
or

received from counsel regarding a plea bargain was so
incorrect

as

to

undermine

his

ability

to

make

an

intelligent decision whether to accept the plea offer." United States v.
Day, 969 F.2d 39, 43 (3d Cir. 1992). This standard correlates with assuring
that the 'habeas petitioner has

"knowledge of the comparative sentence

exposure between standing trial and accepting a plea offer." United 5tates
v. Booth, 432 F.3d 542, 549 (3d Cir. 2005).

In

disposing

of

this

claim,

the

District

Court determined that

counsel's performance was not deficient and the factual basis did not
distort the values of 28 U.S.C. § 2254(d)(2) because:
"(1) trial counsel met with Petitioner several times to
discuss the plea offer... (2) trial counsel understood the
impact of the second victim's death and requested that the
trial judge allow her an opportunity to discuss the
consequences of that death with Petitioner... (3) the
trial judge explained to .Petitioner the charges against
him and the sentence that could result from each charge...
and four years for third-degree murder; (4) the trial
judge informed Petitioner that the .Commonwealth's offer
would result in a sentence of 15 to 3D years in exchange
for resolving all charges aginst him... and explicitly
questioned Petitioner about the plea offer and whether he
understood his options;... (5) Petitioner affirmed to the
trial judge that the plea offer was communicated to him
and that he wanted to proceed to trial; (6) and Petitioner
changed his mind regarding the plea at least twice."
Appendix B at .6; (emphasis added).

0

Petitioner contends that the district court's reliance on Frye and
Lafler uas incorrect because, there is no dispute that he uas.aware of the
offer of 15 to 3D years. In contrast, this case is controlled by Hill v.
Lockhart,
(2D17),

474 U.5. 52 (1 985) and Lee v.

United States,

137 S.Ct. 1958

because the inquiry here as prescribed in Hill focuses on the

defendant's decision making. Hill, 474 U.5. at 59.
On

this

premise

this

Court has

to

take

a

strong

look

at

the

information that uas relayed to Petitioner uhen making his decision on
uhether to plead guilty

or proceed .to trial. As' stated, Petitioner does

not dispute the offer uas relayed to him and made part of the record. In
addition, he uas also auare of the fact that, if convicted, he uould have
received a

maximum sentence of 2D years for the charge of aggravated

assault and 7 years for the homicide by vehicle-^Bxactly uhat the evidence
of

this

case

amounts

to.

Most

importantly

and

most

troubling,

the

Petitioner uas auare that if he uas convicted on the charge of third-degree
murder, the maximum sentence he could receive uas 4 years. Appendix.B at 6.

At this juncture it is fair to state'that, the most serious charge in
this case is third-degree murder. That is because,- the statutory maximum is
40 years. See, 18 Pa. C.5. § 1102(d). Nevertheless, uithout objection and
providing the correct information, Petitioner uas unquestionably informed
that he uas. exposed to a maximum penalty of 4 years on the most serious
charge. This uas fatal to Petitioner's decision making. See, Bui, 795 F.3d
at 367

("Potential sentencing exposure [is] an important factor in the

decision-making process.").

9

As this Honorable Court explained in Lee:
"A defendant without any viable defense will be highly
likely to lose at trial. And a defendant facing such long
odds will rarely be able to show prejudice from accepting
a guilty plea that offers him a better: resolution than
would be likely after trial. But that is not because theprejudice inquiry in this context looks to the probability
of a conviction for its own sake. ....
But common sense ('not to mention our precedent) recognizes
that there is more to consider, than simply the liklihood
of success at trial. The decision whether to plead guilty
also involves assessing the respective consequences of a
conviction after trial and by plea. See, INS v. 5t. Cyr,
533 U.S. 209, 322-323 (2001 ). LJhen those consequences are,
from the defendant's perspective, simply dire, even the
smallest chance of success at trial may look attractive.
For example, a defendant with no realistic defense to a
charge carrying a 20-year sentence may nevertheless choose •
trial, if the prosecution's plea offer is 18 years." Lee,
137 S.Ct. at 1 966.

In this case, Petitioner was offered a plea of 15 to 30 years. Based
upon erroneous
received a

advice,

he

rejected this

sentence of 25 to 50 years.

offer,

was

found

guilty

and

The sentence’ i.s structured as

follows, 8 to 16 years for aggravated assault and 17 to 34 years for thirddegree murder. However, based upon the information that was provided during
the

decision-making

process,

the

conviction

and

sentence

thereafter,

Petitioner's sentence should have only amounted to 10 to 20 years. That is
because, that maximum penalty as explained by the court for third-degree
murder was

4

years.

Taking

the face value of the

aggravated assault

conviction and the sentence of B to 16 years-when adding a consecutive term
of 2-4.years for the third-degree murder conviction, you Jend^ up with 10 to
20 years. A sentence less than 15 to 30 years.
The district court specifically held that, the "state court record.
shows that Petitioner was aware of the comparative sentence exposure of

10

i

i

standing trial and accepting the plea offer. This information, crucial to
Petitioner1 s decision regarding the plea, was explicitly communicated to
Petitioner

by

the

trial

Judge."

Appendix

B

at

7.

In

contrast,

the

information given to Petitioner mas unquestionably incorrect. Therefore, the •
factual

basis

is

incorrect.

Miller-El

v.

Cockrell,

537

U.5.

322

(2003)(explaining that, a court's determination can be unreasonable when it
'had facts before it but ignored them). Clearly

l

the district court ignored

■ that Petitioner was advised by "the trial judge" that he could only receive
a maximum sentence of 4 years for the charge of third-degree murder, when
in fact he received a maximum penalty of 34 years. Lafler, supra.
Finally, the district court's determinations are contrary to Lee as
explained above and in Hill. See, e.g., Hill, 474 U.S. at 60 . (reserving the
issue of whether incorrect advice regarding parole eligibility could be
deemed

deficient

substantial one,
Martinez,
[state]

566

performance).

which is to say

U.S.

court's

The

at 14.

resolution

claim
...

raised

by

Petitioner

"is

a

that the claim has some merit."

Jurists "of reason could disagree with the
of

['Petitioner's]

constitutional

claims."

Miller-El, 537 U.S. 327. Petitioner has satisfied the Martinez standard and
in the interest of justice premised upon the prejudicial impact imposed on
him by counsel's deficient performance, this application .should be granted.

11

i

II.

The district court's disposal of Petitioner's claim of trial counsel's
ineffectiveness for failing to request an involuntary manslaughter
instruction was contrary to clearly established Federal law and
extremely unreasonable. In light of the jury question, the decision
was contrary to the facts. 2B U.5.C. § 2254(d)(1)/(2).
A

federal

court

may

grant

habeas

relief

if

a

state

court's

adjudication of the claim was "contrary to, or involved an unreasonable
application of,

clearly established Federal law, as determined" by this

Court. 2B U.5.C. § 2254(d)(1). "Where, as here, the state's.application of
governing federal law is challenged,

it must be shown to be not only

erroneous, but objectively unreasonable." Yarborough v. Gentry, 540 U.S. 1,
5 (2003): Williams v. Taylor, 529 U.S. 362, 409 (2000).

In

this

case,

Petitioner

was

charged as: follows,.

involuntary

manslaughter, homicide by vehicle and third-degree murder. The charges of
involuntary manslaughter (with the exception of the vehicle) and homicide
by vehicle are identical. See, e.g., Commonwealth v. Comer, 716;A.2d 593,
599

(Pa.

199B)(holding

that

because

"imposing separate

sentences

[for

homicide by vehicle and involuntary manslaughter] violates double jeopardy,
the two offenses merge for sentencing purposes"). Involuntary manslaughter
is the lesser included offense for the charge of third-degree murder. See,
Commonwealth.v. Polimeni, 370 A.2d 1189, 1193(Pa. 1977).
As a general proposition, this Honorable Court has consistently held
that a defendant is entitled to an instruction as to any recognized defense
for which there exists evidence sufficient for a reasonable jury to find in
his favor. Stevenson v. United States, 162 U.S. 313 (1B96). A parallel rule
has been applied in the context of a lesser included offense instruction.
Keeble v. United States, 412 U.S. 2D5, 2QB (1973).

12

In denying habeas corpus relief, the district court adopted the state
court's findings which confussionly and unreasonably held:
"homicide by vehicle includes all the elements of
involuntary manslaughter, plus the additional requirement
that the death was caused while violating the [Vehicle Code]. Accordingly, trial counsel would have been entitled
to request that involuntary manslaughter be submitted to
the jury if a reasonable juror could have found
[Petitioner] guilty of involuntary manslaughter but not
guilty of homicide by vehicle.
i
The evidence at trial, however, clearly established the
contrary. In particular, there was overwhelming evidence
that [Petitioner's] reckless and grossly- negligent conduct
consisted of multiple violations of the [Vehicle Code],
Because no reasonable juror could have found [Petitioner]
guilty of involuntary manslaughter, but not guilty of
homicide by vehicle, any request by trial counsel to
submit the involuntary manslaughter charge to the jury
would have been rejected. PCRA Super. Ct. Op. at 3
(quoting PCRA Trial Ct. Op. at 6-7)". (emphasis added);
Appendix A at 11-12).'
While it is true that a habeas court, by statute, is required to give
appropriate deference to the state court's findings, 28 U.5.C. § 2254(c),
the deference in this case is alarming and extremely unreasonable. That is
because,

the

state • court

specifically acknowledged that,

"homicide by

vehicle includes all the elements of involuntary manslaughter" and that
"trial

counsel

would

have

been

entitled

to

request

that

involuntary

manslaughter.be submitted to the jury," only if "a reasonable juror could
have found [Petitioner] guilty of involuntary manslaughter but not guilty
of homicide by vehicle." It is hard not to say wow.
Indeed,

in Matthews

Honorable Court held that,

v.

United States,

4B5 U.S.

50

(1 988),

this

"even if the defendant denies one or more

elements of the crime, he is entitled to an instruction whenever there is

13

sufficient evidence from which a reasonable juror could find." In
addition, the Matthews Court stated that:
"Federal appellate cases also permit the raising of
inconsistent defenses. See, Johnson v. United States, 426
F.2d 651, 656 (1970)(the defense in a rape case was
permitted to argue that the act did not take place and
that the victim consented) ... And state cases suport the
proposition that a homicide defendant may be entitled to
an instruction on both accidental and self-defense, two
inconsistent affirmative defenses." (citation omitted).

On its face, the state court's decision is in direct conflict with
Matthews,
"homicide

and while, this point exists,
by

vehicle

includes

all

it is minimal. That is because,
the

elements

of

involuntary

manslaughter." Therefore, it is not a inconsistent defense, instead, it is
a defense itself. To agree with the district court's findings,•this Court
would have to use a broad stroke to deny him relief. Put in perspective,
this Court will have to agree that, the only way for the Petitioner to be
entitled to an

involuntary manslaughter

instruction,

he would have to

literally prove that "a reasonable juror could have found Phim] guilty of
involuntary manslaughter but not guilty of homicide by vehicle," which is
simply not true. That is because, he was actually found guilty of thirddegree murder and homicide by vehicle.
In Stevenson, this Court reversed a murder conviction arising out of
a gunfight in the Indian Territory.. The principle holding of this Court was
that the evidence was sufficient to entitle the defendant to a manslaughter
instruction, not that a defendant must prove that he was not guilty of the
general charge of murder.
And while it is true .that Petitioner was found guilty of third-degree
murder and homicide by vehicle, the bottom line it that, the same way that

14

he was found.guilty of the aforementioned charges, he could have been found
guilty of both homicide by vehicle and involuntary manslaughter without
disproving either charge.
Supreme Court

case

of

This

Comer,

is exactly what happened in
but nevertheless,

the

State

those convictions for

sentencing purposes merged. Comer, 716 A.2d at 599.
Contrary to the state court's factual findings,

reasonable jurors

could have found him guilty of both charges. In fact, the record clearly
reflects that had the jury been provided the lesser included offense
instruction, it is reasonable to conclude that he would have been found
guilty of involuntary manslaughter because the jury submitted questions
surrounding the charge of third-degree murder and homicide by vehicle. 5ee,
N.T. 2/13/13 at 185-186. Moreover, Dr. Aaron Rosen testified that the cause
of death was an accident. See

N.T. 2/13/13 at 62, 65.

In regards to "there was overwhelming evidence that [Petitioner]"
could not be found guilty, of the lesser included offense is erroneous.. That
is because,

the court may not speculate as to the basis of the jury's

verdict. Strong as the state's case may be, a jury is nonetheless free to
reject it in its entirety and instead accept the Petitioner's defense.
Commonwealth v. Ewell, 319 A.2d 153, 157 (Pa. 1974).
On proir occasions, the State Supreme Court has refused to ignore an
incorrect, misleading, or incomplete charge on a matter as fundamental as
the burden of proof in a criminal case, even where "the evidence of guilt
piles as high a's Mt. Everest on Matterhorn, even if the

[state court]

conscientiously believes the defendant to be as guilty as Cain, and no
matter with what certainty the Judge views the culpability, of the accussed
at the bar." Commonwealth v. Bishop, 372 A.2d 794, 797 (Pa. 1977).

15

Unquestionably, the Petitioner was entitled to this instruction and
had it ‘been given it is reasonable to conclude that the outcome would have
been different. Namely, a lesser sentence at the very least. Consequently,
the

district

Matthews.

court’s

findings

Furthermore,

distorts the

the

entire meaning

are

contrary

factual

basis

is

of 26

U.S.C.

§

appropriate in this case.

16

to

Stevenson,

incorrect

Keeble

and

and

therefore,

2254(d)(1)/(2) .

Relief is

CONCLUSION
While it*’-' is true that Petitioner is

a

pro se litigant and the

likeliness of review is dim, the reality of the matter is- that this Court's
precedent is crystal clear, directly on point and totally conflicts with
the

district

court's

findings.

The

Petitioner

is

actively

serving

a

sentence of 25 to 50 years for the accidental death of his best friend,
when in fact, he was offered a plea substantially less than the sentence
imposed.. Had he received adequate advice, he probably would have accepted
that plea.

Had the jury been properly instructed,

it is reasonable to

conclude that he would have been convicted on the lesser included offense
and received less time. In the interest of justice, Petitioner prays that
this Honorable Court strongly consider his Petition and grant whatever
relief deemed appropriate and just.

Respectfully Submitted,
Date:
Robert Carter, Pro se
KZ 5248
301 Institution Drive
Bellefonte, PA 1:6023

<*

17

